Nos. 20-6570 and 20A110
IN THE SUPREME COURT OF THE UNITED STATES
_________________
BRANDON BERNARD, PETITIONER
v.
UNITED STATES OF AMERICA
(CAPITAL CASE)
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION TO PETITION FOR A WRIT
OF CERTIORARI AND TO APPLICATION FOR A STAY OF EXECUTION, via email
and first-class mail, postage prepaid, this 9th day of December 2020.
[See Attached Service List]

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 9, 2020

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

SERVICE LIST: 20-6570 BERNARD V. USA
ROBERT C. OWEN
53 W. JACKSON BLVD., STE. 1056
CHICAGO, IL 60604
512-577-8329
robowenlaw@gmail.com
JOHN R. CARPENTER
ASSISTANT FEDERAL PUBLIC DEFENDER
WESTERN DISTRICT OF WASHINGTON
1331 BRAODWAY, SUITE 400
TOCOMA, WASHINGTON 98402
253-593-6710
John_carpenter@fd.org

